DOE F 1.25.8
(08-93)
United States Government                                                       Department of Energy


Memorandum
        DATE:   August 12, 2004
    REPLY TO
    ATTN OF:    IG-30 (A04TG039)                                    Audit Report No.: OAS-L-04-19
    SUBJECT:    Interim Report on Audit of "The Department's Implementation of I-MANAGE STARS"
         TO:    Chairpersons, I-MANAGE Executive Steering Committee

                The purpose of the report is to provide you with observations made during our ongoing
                audit of the Department of Energy's (Department) implementation of the Integrated
                Management Navigation System (I-MANAGE) program's Standard Accounting and
                Reporting System (STARS). The audit was initiated in May 2004 and is currently in
                progress at the Department's Office of Management, Budget and Evaluation at
                Headquarters and at the Oak Ridge Reservation (Oak Ridge). The audit methodology is
                described in an attachment to this report.

                INTRODUCTION AND OBJECTIVE

                Successful implementation of STARS is critical to ensuring the accuracy and reliability
                of the Department's financial statements. STARS will replace the Department's aging
                legacy core financial systems and is the backbone of the I-MANAGE initiative - a
                corporate-level system designed to help achieve the President's Management Agenda for
                improved financial performance, expanded electronic government, and budget and
                performance integration. STARS is scheduled to be implemented on October 1, 2004,
                and to be deployed for user operations on November 1, 2004. Prior to beginning
                operation, STARS must first pass a preliminary "Go/No Go" decision on
                August 16, 2004, and a final "Go/No Go" decision on September 22, 2004. When
                complete, the system is expected to cost about $51 million.

                Our overall review of STARS and I-MANAGE will not be completed until post-
                implementation testing is complete. The purpose of this interim report is to highlight
                areas that, in our judgment, should be considered by the Executive Steering Committee as
                it evaluates future steps and related schedules.

                CONCLUSION AND OBSERVATIONS

                Our review disclosed a number of challenges to the successful implementation of
                STARS. These issues increase the risk that the Department may not be prepared to
                launch a fully capable system on schedule. Specifically, we noted that:

                     *As a result of its Financial Services Competitive Sourcing Initiative (A-76 Study),
                      the Department is in the process of reorganizing a significant portion of its
                      accounting function. The Department chose a "dual track" implementation of its
    competitive sourcing solution and STARS. This approach significantly increases
    demands on existing staff, and increases uncertainty as to whether resources will
    be available for implementation and testing. As an example, work to consolidate
    payment operations at Oak Ridge and to centralize National Nuclear Security
    Administration activities at its Albuquerque Service Center have decreased
    resources originally expected to be available for STARS-related activities.

*   Interface testing to ensure the proper inclusion of contractor-generated accounting
    data in STARS has not been completed. These interfaces are critical to the
    operation of STARS, and have been described by an implementation official as
    the key "show stopper" for the August 16, 2004, decision. The completion
    schedule for the interfaces slipped from April 2004 to July 2004, and testing
    remained incomplete on the date of this report.

*   As currently designed, STARS does not have the capability to permit budget
    recasts. These functions must frequently be performed to realign data among
    accounting codes and overlay historical data. While an implementation official
    does not believe that budget recasts are necessary, we note that the process has
    become institutionalized and occurs on multiple occasions throughout the year.
    Should this feature not be available, the Department may have to significantly
    reengineer its budget process, an activity that could be labor intensive, costly, and
    one that is not currently included in implemeritation tasks.

*   STARS also cannot process multi-fund accounts receivables. Both management
    and the developer have recognized that this functionality is required for
    reimbursable work and the software vendor is working to modify the core system
    software. A corporate financial system official indicated that STARS cannot be
    successfully implemented unless this feature is in place and functioning.

*   User acceptance testing revealed more errors than expected and is currently
    behind schedule. While officials told us that all tests are now complete, analysis
    needed to determine the severity of the errors and to take corrective actions may
    not be completed until after the August 16 decision point. As of August 5, 2004,
    138 of 193 issues remained to be resolved.

*   Users to be trained for STARS have not been fully identified. The STARS
    training schedule has been delayed approximately one month, with the "Train the
    Trainers" module slipping from mid-July to mid-August. Training is critically
    important to successful implementation and is frequently cited as a cause in failed
    efforts.

*   Crosswalks necessary to ensure the proper cleanup and conversion of field site
    data to STARS accounting codes are ongoing and are not expected to be
    completed until implementation. A STARS implementation official told us that
    continuous changes to field site requirements for converting their data to STARS
    accounting codes have made it difficult to complete testing of the crosswalks.



                                         2
      * The Oak Ridge Payment Center (Payment Center) staffing plan did not fully
        consider the increased workload associated with preparing data from the
        Department's legacy system for STARS acceptance. One aspect of the A-76
        Study included consolidating all of the Department payments at Oak Ridge. Oak
        Ridge staff, who are now tasked with performing legacy data cleanup and
        conversion activities, will also be handling triple the payment workload by
        October 2004 with less than a 50 percent increase in personnel. In addition, the
        Payment Center's data entry workload will temporarily increase on
        implementation because STARS does not have the capability to automatically
        post payment transactions to multiple accounts - a capability that currently exists
        with the legacy system. The STARS project team plans to address this issue
        during post-implementation.

While we view each of these issues as substantial, we could not evaluate their overall
impact or determine whether they can be adequately resolved because the project's
critical path has not been well defined. According to the implementation officials, every
task in the STARS project is now considered critical. However, without a critical path,
we cannot gain, and management cannot benefit from, a clear understanding of essential
tasks and interdependencies.

SUGGESTED ACTIONS

In light of the above observations and concerns, the I-MANAGE Executive Steering
Committee should ensure that prior to the September 22, 2004, final decision:

      *    Essential and interdependent tasks are properly identified and prioritized for
           completion;

      *    The budget recast and multi-fund accounts receivable issues are promptly
           resolved;

      *    Consideration is given to setting a date for freezing the crosswalks to allow
           testing to be completed prior to implementation; and,

      *    Sufficient resources are allocated to complete project tasks.

We informed project management officials and the Chief Information Officer of our
observations on August 3, 2004.



                                                 William    . Maharay
                                                 Deputy Inspector General
                                                   for Audit Services
                                                 Office of Inspector General

cc:       . Director, Office of Management Analysis, ME-2.5
            Director, Office of Corporate Financial Systems, ME-13
            Audit Liaison, ME-100

                                                3
                                                                                 Attachment
SCOPE AND METHODOLOGY

The audit of the I-MANAGE STARS was initiated in May 2004 and is currently ongoing
at the Department of Energy Office of Management, Budget and Evaluation at
Headquarters and the Oak Ridge Reservation. To accomplish the audit objective, we:

    *   Held discussions with program managers and project officials at Headquarters to
        gain an understanding of project management roles and responsibilities, and learn
        the history, status, and any problems associated with the project;

    *   Held discussions with officials at the Oak Ridge Operations Office, Oak Ridge
        National Laboratory, and Y-12 National Security Complex to gain an
        understanding of their roles and responsibilities and their progress in preparation
        for system implementation; and

    *   Obtained and reviewed project documentation at Headquarters and the Oak Ridge
        Reservation.

The audit is being performed in accordance with generally accepted Government auditing
standards for performance audits and includes tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective. Because
our review is limited, it would not necessarily disclose all internal control deficiencies
that may exist at the time of our audit. We did not rely on computer-processed data to
accomplish our audit objective. An interim briefing was held with project officials on
August 3, 2004.




                                             4
Urban, Stephanie
From:                       Maharay, Bill
Sent:                       Tuesday, August 17, 2004 12:29 PM
To:                         Friedman, Greg
Cc:                         Hass, Rickey; Urban, Stephanie
Subject:                    FW: Status on STARS


Greg

Although we only issued a letter report, the decision to delay implementation of the STARS system is a significant
success story. The history of the Federal government is replete with unsuccessful implementation of accounting
systems. Hopefully, our report will encourage the Department to go slow and properly develop and implement the next
generation accounting system.

We will do a write up for the semi-annual report.

Bill

-----Original Message---
From: Collard, George
Sent: Tuesday, August 17, 2004 11:31 AM
To: Maharay, Bill; Hass, Rickey
Subject: Status on STARS

Bill and Rick: Warren sent the following to John Yi regarding the Steering Committee's decision on STARS.

George



STARS-Deployment
   .doc (33 KB)
 Decision to delay STARS Deployment

 During the last I-MANAGE Executive Steering Committee meeting on July 29 h, the Co-
chairs promised to release a message on August 16th that provided a preliminary Go No-
Go Decision on STARS.

At that meeting, the PMO reported that an October 2004 deployment of STARS to
support FY 2005 operations was feasible based on preliminary results from the second
round of user acceptance testing as of July 22, 2004. At that point, user acceptance
testing and the follow-on analysis was not yet finished. User acceptance testing is now
complete, testing results have been analyzed, and work is proceeding to address
conversion, test and interface issues.

Based on our analysis, the I-MANAGE co-chairs have made a decision to delay the
STARS deployment. Several key issues led to this decision: (1) continued delays by the
field in completing the accounting cleanup hampered data conversion and problem
analysis during unit acceptance testing and, as a result, end-to-end data conversion and
testing have not been completely reconciled, (2) none of the 27 integrated contractor
interfaces are problem-free and much work remains to be done by the Management and
Operating contractor community to ensure satisfactory resolution of the problems with
these interfaces; (3) other interfaces need additional work to ensure that they can properly
integrate with the new accounting system; and (4) gaps in functionality remain.

The time required to complete all of the aforementioned tasks simply puts us past the
scheduled deployment date. We are now assessing where we are and the subsequent
steps that need to be taken for a successful deployment. Within a short period of time, we
will provide you with more information regarding the impact and extent of the delay.

We ask for your continued support. Stay tuned.
DOE F 1325.8
(08-93)
United States Government                                                               Department of Energy


Memorandum
        DATE:     SEP 14 2004
    REPLY TO
     ATTN OF:   IG-34 (A04TG039)
    SUBJECT:    Final Report Package for the Interim Report on Audit of "The Department's
                Implementation of I-MANAGE STARS" Audit Report Number: OAS-L-04-19
          TO:   Rickey R. Hass, Assistant Inspector General for Audit Operations

                Attached is the required final report package on the subject audit. The pertinent details are:
                1. Actual Staff days:          157
                   Actual Elapsed days:         85

                   Actual Elapsed Days Less Suspended:          85
                2. Names of OIG and/or contractor audit staff:

                   Assistant Director:         Kevin Majane
                   Team Leader:                Dan Weeber
                                               Darryl Ross
                   Auditor-in-Charge:          John Yi
                   Audit Staff:                John Moynihan
                                               Chari Reines
                                               Erin Cole

                3. Coordination with Investigations and Inspections:

                   Investigations:             Brenda Froberg (05/11/04 & 08/13/04)
                                               Tyler Smith (05/11/04 & 08/17/04)
                                               Reggie France and Randall Kizer (08/17/04)
                   Inspections:                Geoff Gray (05/11/04)
                                               Fatima Pashaei 08/13/04 & 08/16/04)



                                                          rge        .   Collard, Acting Director
                                                      Science, Energy, Technology,
                                                        and Financial Audits Division
                                                      Office of Audit Services
                                                      Office of Inspector General
                Attachments:
                1. Final Report
                2. Monetary Impact Report
                3. Audit Project Summary Report
                4. Audit Database Information Sheet
                          MONETARY IMPACT OF REPORT NO.: OAS-L-04-19


1. Title of Audit:        Interim Report on Audit of "The Department's Implementation of I-
                          MANAGE STARS"

2. Division:              Science. Energy. Technology, and Financial Audits Division

3. Project No.:           A04TG039

      1. Type of Audit:

       Financial:                                             Performance:       X
         Financial Statement                                    Economy and Efficiency                 X
         Financial Related                                      Program Results
       Other (specify type):

5. Please report monetary savings identified in the report using applicable columns. Provide additional
explanations of audited activities/locations in Section No. 6 - Remarks.

                                                                                                      MGT.          POTENTIAL
          FINDING                   COST                        QUESTIONED COSTS                    POSITION         BUDGET
                                 AVOIDANCE                                                                           IMPACT
(A)              (B)            (C)      (D)          (E)          (F)      (G)            (H)         (I)             (J)
                 Title         One    Recurring    Questioned    Unsup-   Unre-           Total     C=Concur          Y=Yes
                               Time    Amount                    ported   solved       (E)+(FH(G)   N=Noncon          N=No
                                       PerYear    _U=Undec
      Opportunities for                           Unknown
      Improvement



TOTALS--ALL FINDINGS                              _________




      6. Remarks: As of the interim report, we were unable to identify a specific one time monetary
         impact attributable to making improvements in the Department's management of the
          development and transition of STARS. However, this audit is still ongoing and will be tracked
         by a new audit job code, A04TG043.

7. Contractor:                                       10. Approvals:
8. Contract No.:                                     Division Director/Date:                                                    9//
9. Task Order No.:                                   Technical Advisor & Da                                    .-
                                                                                   1
                                            Office of the Inspector General                        (OIG)

                                          Audit      Project Office Summary                          (APS)
                                                                                                                               Page 1
Report run on:                    September 8, 2004 2:14 PM


   Audit#: A04TG039              Ofc: ATA     Title: I-MANAGE STARS IMPLEMENTATION

                                                                    Milestones
                                             Planned              End of Survey                   Revised       Actual


   Entrance Conference:.....                19-MAY-04                                       19-MAY-04         19-MAY-04

   Survey:..................                20-AUG-04
   Draft Report:.............               17-DEC-04
   Completed (With Report):.                28-JAN-05                                       12-AUG-04         12-AUG-04   (R   )
   ------------      Elapsed Days:                  254                                               85            85
                                                                                                     Elap. Less Susp:
   Date Suspended:                                               Date Terminated:
   Date Reactivated:                                             Date Cancelled:
   DaysSuspended(Cur/Tot):                                   ) Report Number:               OAS-L-04-19
   Rpt Title:                                                    Report Type:               LTR     LETTER REPORT
   INTERIM REPORT ON AUDIT OF "THE DEPARTMENT'S IMPLEMENTATION OF I-MANAGE STARS"


                                             ****        Audit Codes and Personnel ****

   Class:         PER    PERFORMANCE
   Program:              Not Found
   MgtChall: 020         INFORMATION TECHNOLO
                                                                                AD:         530      MAJANE
   Site:                 Not Found
                                                                             AIC:           796      YI
   SecMiss:              Not Found
                                                                        Team Ldr:           713      WEEBER
   PresInit: EEG         EXPANDED ELECTRONIC                            Tech Adv:           544      ACTON

                                                    **      Task Information         ****


          Task No:
          Task Order Dt:                                         CO Tech. Rep:
          Orig Auth Hrs:                                         Orig Auth Costs:
          Current Auth:                                          Current Auth Cost:
          Tot Actl IPR Hr:                                       Tot Actl Cost:


                                                         **** Time Charges       *****[


                     Emp/Cont Name            Numdays -                Last Date

                     BOOS, B                               0.6        21-AUG-04
                     ROSS, D                               4.8        07-AUG-04
                     COLE, E                              12.9        21-AUG-04
                     WEEBER, D                            16.5        21-AUG-04
                     REINES,      C                       31.4        21-AUG-04
                     YI, J                                35.8        21-AUG-04
                     MOYNIHAN,        J                   54.9        21-AUG-04
                        Total:                           156.9
                                                                                         Attachment 4


                         AUDIT DATABASE INFORMATION SHEET

1. Project No.: A03TG03j

2. Title of Audit: Interim Report "The Department's Implementation of I-MANAGE STARS"

3. Report No./Date: OAS-L-04-19, Issued August 12, 2004

4. Management Challenge Area: Information Technology

5. Presidential Mgmt Initiative: Expanded Electronic Government
                                 Budget and Performance Integration

6. Secretary Priority/Initiative: Information Technology Management
                                  Project Management

7. Program Code: ME

8. Location/Sites: OMBE Headquarters in Germantown, MD; Oak Ridge Operations Office; Oak
   Ridge National Laboratory; Y-12 National Security Complex

9. Finding Summary: This interim report contains our observations to date on the implementation of
   the STARS financial system. Our review disclosed a number of challenges to its successful
   implementation, including:

   *   Resource issues resulting from the dual implementation of STARS and MEO;
   *   Incomplete system interface testing;
   *   STARS' inability to permit budget recasts;
   *   STARS' inability to process multi-fund accounts receivables;
   *   Incomplete analysis and resolution of the user acceptance testing errors;
   *   Incomplete identification of users to be trained;
   *   Incomplete testing of data crosswalks; and
   *   Staffing issues revolving around Oak Ridge's implementation of both STARS and the new
       Payment Center.

   Because management had not established a critical path to project completion, they could not gain a
   clear understanding of the essential tasks that need to be performed.

   In light of these observations and concerns, we identified several suggested actions for the
   I-MANAGE Executive Steering Committee to consider prior to its September 22, 2004, final
   "Go/No Go" decision.

   This audit is still ongoing and will be tracked by a new audit job code, A04TG043.

10. Keywords:     I-MANAGE, STARS, Financial System, System Development
